HHS/OIG Audit:"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the Washington Department of Social and Health Services,"(A-06-01-00006)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Washington Department of Social and Health Services," (A-06-01-00006)
November 19, 2001
Complete
Text of Report is available in PDF format (932 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Most States use average wholesale price (AWP) minus a percentage discount, which
varies by State, as a basis for reimbursing pharmacies for drug prescriptions.  Therefore,
the objective of this review was to develop for the Washington Medicaid program
an estimate of the discount below AWP at which pharmacies purchase brand name and
generic drugs.  Through use of statistical sampling, we obtained from Washington
retail pharmacies 1,076 invoice prices for brand name drugs, and 514 invoice prices
for generic drugs.  Our estimate of the overall discount below AWP for the
invoice prices reviewed was 20.91 percent for brand name drugs and 65.32 percent
for generic drugs.  Our national estimates, included in reports we previously
issued were 21.84 percent and 65.93 percent, respectively.  We recommended
that the Washington Department of Social and Health Services consider the results
of this review as a factor in any future changes to pharmacy reimbursement for
Medicaid drugs.